FY 2010 OFFICE OF INSPECTOR GENERAL
FISMA REVIEW OF GSA’S INFORMATION
  TECHNOLOGY SECURITY PROGRAM
  REPORT NUMBER A100085/O/F/F11001

           December 8, 2010
Date:           December 8, 2010

To:             Casey Coleman
                Chief Information Officer (I)

Reply to        Carolyn Presley-Doss
Attn of:        Deputy Assistant Inspector General for Finance and Information Technology
                Audits (JA-F)

Subject:        FY 2010 Office of Inspector General FISMA Review of GSA’s IT Security
                Program, Report Number A100085/O/F/F11001

The Federal Information Security Management Act of 2002 (FISMA) directs Inspectors General
(IGs) to perform an annual independent evaluation of their respective agency’s information
security program and controls for select systems. This audit report presents the results of the
Office of Inspector General’s fiscal year 2010 review of the General Services Administration’s
(GSA’s) information technology (IT) security program and reflects results from five system
security audits conducted during the year. Appendix A provides the objective, scope, and
methodology for the audit.

On April 21, 2010, the Office of Management and Budget (OMB) issued annual FISMA
reporting instructions1 for agencies and IGs. OMB directed IGs to assess agency information
security performance in key areas, including certification and accreditation, configuration
management, security training, incident response, remote access, and identity management.
Further, OMB has directed Agencies and IGs to use Cyberscope, an Internet-based tool to
respond to OMB’s FISMA questions.

                                       RESULTS OF AUDIT

GSA’s Chief Information Officer (CIO) continues to take steps to develop, document, and
implement an agency-wide IT security program. For example, the CIO has updated GSA’s IT
Security Policy, published procedural guidance on a variety of information security topics, and
expanded the IT security program to cover cloud computing technologies. However, we found
that additional steps are needed to strengthen GSA’s IT security program in four key areas: (1)
secure configuration of agency systems, (2) oversight of audit logging and monitoring practices,
(3) implementation of multifactor authentication for systems processing sensitive information,
and (4) encryption of data on agency laptop computers.


1
 OMB Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal Information Security Management
Act and Agency Privacy Management, April 21, 2010


                                                   1
                                         RECOMMENDATIONS

To improve GSA’s IT Security Program and to ensure the security of GSA systems, data, and
operations, we recommend that the GSA-CIO take actions to:

      1. Strengthen configuration management practices for GSA systems by:

               a. Increasing oversight of security officials’ application of baseline configuration
                  requirements, and
               b. Expanding technical testing processes to include authenticated scanning.

      2. Work with system security officials to prioritize the implementation of audit logging and
         monitoring controls for GSA systems.

      3. Ensure that all systems that are remotely accessed implement multi-factor authentication,
         as appropriate.

      4. Implement an encryption solution for agency laptops that integrates into GSA’s network
         environment.

                                    EXPLANATION OF FINDINGS

Expanding technical testing processes could improve configuration management of agency
systems

While the GSA-CIO has implemented a testing program with tools that identify vulnerabilities,
improvements are needed to better secure agency systems and data. Specifically, we identified
numerous weaknesses in all five systems reviewed resulting from security misconfigurations of
database or operating system software. These weaknesses included database and operating
system software that was not patched or securely configured and lax password management
practices for database administrator accounts. As a result, these systems and their sensitive data
were placed at an increased risk of inappropriate access, modification, or destruction. GSA’s IT
Security Policy requires all information systems be securely hardened and patched while in
operation. National Institute of Standards and Technology (NIST) Special Publication 800-532
requires organizations to configure the security settings of IT systems to the most restrictive
mode consistent with operational requirements.

Weaknesses occurred for two primary reasons. First, system security officials were not applying
GSA’s IT Security Policy requirements for baseline configuration. Second, technical testing
conducted by the GSA-CIO as part of GSA’s oversight was not comprehensive. To strengthen
configuration management of GSA systems, we recommend that the GSA-CIO: (1) increase
oversight of security officials’ application of baseline configuration requirements, and (2) expand
technical testing processes by performing authenticated scans. Authenticated scanning would
provide a more comprehensive view as to the implementation of GSA’s IT Security Policy and
hardening guides by system security officials.
2
    NIST SP 800-53, Rev. 2, Recommended Security Controls for Federal Information Systems, December 2007


                                                       2
Additional oversight by GSA’s IT security program could assist in ensuring that audit logging
and monitoring controls are implemented for GSA systems

While the GSA-CIO has published policy on audit logging and monitoring, we found
inconsistent implementation of the policy for three of five systems reviewed, specifically:

       Database audit records, which would capture information such as the modification and
       deletion of data and administrative actions, were not generated for one system that
       contains Privacy Act information.
       Operating system audit records that monitor baseline system data, such as system
       performance, were not enabled for another system containing Privacy Act information.
       System security officials were not reviewing audit records for suspicious activity for
       another system containing sensitive information.

As a result of not appropriately implementing audit logging and monitoring, system security
officials may be unable to identify unauthorized activity or when GSA systems are
compromised. Further, investigatory actions in response to security incidents may be hindered.
GSA’s IT Security Policy requires that security auditing capabilities be employed on all GSA
information systems and that audit records be reviewed frequently for signs of unauthorized
activity and other security events.

Inconsistent implementation occurred primarily because GSA, in its efforts toward enterprise-
wide continuous monitoring, has not prioritized the management of audit records for systems that
contain sensitive information. To better detect potential security incidents, we recommend that
the GSA-CIO work with system security officials to prioritize the implementation of audit
logging and monitoring for GSA systems.

Better planning could help ensure successful implementation of multifactor authentication for
GSA systems

Multifactor authentication involves accessing IT systems with two or more of the following:
something a user knows (e.g., username and password), something a user has (e.g., smartcard),
or something a user is (e.g., biometrics). None of the five systems that we reviewed were using
multifactor authentication for remote access to sensitive information. All permit access with
only a username and password. Further, three of the systems contained sensitive data. As a
result, these systems were placed at an increased risk of unauthorized access, disclosure of
sensitive information, and having their data compromised.

The lack of multifactor authentication was not addressed as part of the security assessments for
all five systems reviewed. One system identified this as a requirement, but implementation of
multifactor authentication was not tracked and prioritized on the system plan of action and
milestones. NIST requires multifactor authentication for remote access to these systems. To
better ensure the security of system data and to enhance access controls, we recommend that the
GSA-CIO ensure that all systems that are remotely accessed implement multifactor
authentication, as appropriate.


                                               3
GSA must overcome technical challenges for successful implementation of an encryption
solution for agency laptops

GSA has not implemented a solution to encrypt agency laptops, a condition we originally
reported in 2008.3 In response to a 2006 security incident in which a laptop containing
personally identifiable information for 26.5 million U.S. military veterans was stolen, the Office
of Management and Budget now requires agencies to encrypt sensitive data on all mobile
devices.4 Encryption refers to converting data into a form that is not easily understood by
unauthorized individuals. When data on agency laptops is not encrypted, sensitive information
may be at increased risk of disclosure and misuse in the event that the laptops are lost or stolen.

GSA laptops are not encrypted because GSA has experienced significant technical problems in
integrating the chosen encryption solution in the GSA’s network. To ensure that sensitive
information is adequately protected on agency laptops, we recommend that the GSA-CIO
implement an encryption solution for agency laptops that integrates into GSA’s network
environment.

                                  MANAGEMENT COMMENTS

The GSA-CIO concurred with the findings and recommendations outlined in this report. A copy
of the GSA-CIO’s comments is included in its entirety in Appendix B.

                                      INTERNAL CONTROLS

This audit included a review of elements of GSA’s IT Security Program including select
management, operational, and technical controls for five GSA systems. We did not test all
controls across GSA. The Results of Audit and Recommendations sections of this report state, in
detail, the need to strengthen specific processes and controls established within the GSA IT
Security Program.


We would like to express our thanks to the GSA-CIO’s staff for their assistance and cooperation
during this audit. Please contact Michael Nussdorfer, Auditor-in-Charge, or me if you have any
questions regarding this report.




Larry Bateman
Audit Manager
Finance and Information Technology Audit Office (JA-F)

3
  FY 2008 Office of Inspector General FISMA Review of GSA’s IT Security Program, Report Number
A080081/O/T/F08016, dated September 11, 2008
4
  OMB Memorandum M-06-16, Protection of Sensitive Agency Information, June 23, 2006


                                                     4
                        FY 2010 OFFICE OF INSPECTOR GENERAL
                        FISMA REVIEW OF GSA’S INFORMATION
                          TECHNOLOGY SECURITY PROGRAM
                          REPORT NUMBER A100085/O/F/F11001

             APPENDIX A – OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine if the General Services Administration (GSA) has
developed, documented, and implemented an agency-wide information security program. If not,
what additional actions are needed to strengthen information security risk management practices
for GSA? To address this objective we:

       Reviewed policies, procedures, technical guides, and standards established within GSA’s
       IT Security Program
       Assessed the implementation of GSA’s IT Security Program for five select GSA systems.
       For these systems, we conducted security audits to determine whether management,
       operational, and technical controls had been implemented to effectively manage risks.
       Met with GSA IT security officials in the Office of the GSA Chief Information Officer,
       Federal Acquisition Service, Public Buildings Service, and the Office of
       Governmentwide Policy. We also met with GSA’s external auditor, KPMG.
       Considered results of information systems controls testing performed for the financial
       statement audit.
       Evaluated the implementation of information security program elements from National
       Institute of Standards and Technology (NIST) Special Publication (SP) 800-100,
       Information Security Handbook: A Guide for Managers, October 2006.
       Applied the NIST Federal Information Processing Standards Publications and SP 800
       series security guidelines.
       Utilized applicable information security regulations, policies, and guidance.
       Examined system certification and accreditation packages, including system risk
       assessments, security plans, security assessment results, contingency plans, and system-
       and program-level plans of action and milestones.
       Conducted operating system, database, and web application security testing for the select
       systems we reviewed.

We conducted this performance audit in accordance with generally accepted government
auditing standards between January and October of 2010. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                               A-1
 FY 2010 OFFICE OF INSPECTOR GENERAL
 FISMA REVIEW OF GSA’S INFORMATION
   TECHNOLOGY SECURITY PROGRAM
   REPORT NUMBER A100085/O/F/F11001

APPENDIX B – MANAGEMENT COMMENTS




                 B-1
                                  FY 2010 OFFICE OF INSPECTOR GENERAL
                                  FISMA REVIEW OF GSA’S INFORMATION
                                    TECHNOLOGY SECURITY PROGRAM
                                    REPORT NUMBER A100085/O/F/F11001

                                  APPENDIX C – REPORT DISTRIBUTION

                                                                                                     Electronic Copies
Chief Information Officer (I) ................................................................................................3
       Senior Agency Information Security Officer (IS) ........................................................1
Commissioner, Public Buildings Service (P) ........................................................................1
Commissioner, Federal Acquisition Service (Q) ..................................................................1
Associate Administrator, Office of Governmentwide Policy (M) ........................................1
Internal Control and Audit Division (BEI) ............................................................................1
Assistant Inspector General for Auditing (JA) ......................................................................1
Director, Audit Operations (JAO)..........................................................................................1
Deputy Assistant Inspector General for Acquisition Audits (JA-A) .....................................1
Deputy Assistant Inspector General for Real Property Audits (JA-R) ..................................1
Director, Administration and Data Systems (JAS) ................................................................1
Assistant Inspector General for Investigations (JI) ................................................................1




                                                                 C-1
